   DEPARTMENT OF HEALTH & HUMAN SERVICES                                OFFICE OF INSPECTOR GENERAL

                                                                        Washington, D.C. 20201




August 4, 2010

TO:            Mary Wakefield, Ph.D., R.N.
               Administrator
               Health Resources and Services Administration


FROM:          /Lori S. Pilcher/
               Assistant Inspector General for Grants, Internal Activities,
                 and Information Technology Audits


SUBJECT:       Results of Limited Data Quality and Recipient Reporting Review at Near North
               Health Service Corporation (A-05-10-00059)


Attached, for your information, is an advance copy of our final report on Near North Health
Service Corporation (Near North). We will issue this report to Near North within 5 business
days. The review was requested by the Recovery Accountability and Transparency Board.

If you have any questions or comments about this report, please do not hesitate to contact me at
(202) 619-1175 or through email at Lori.Pilcher@oig.hhs.gov. Please refer to report number
A-05-10-00059 in all correspondence.

Attachment
   DEPARTMENT OF HEALTH & HUMAN SERVICES                               Office of Inspector General

                                                                       Office of Audit Services, Region V
                                                                       233 North Michigan Avenue
                                                                       Suite 1360
                                                                       Chicago, IL 60601




August 5, 2010

Ms. Berneice Mills-Thomas
Executive Director
Near North Health Service Corporation
1276 North Clybourn Avenue
Chicago, IL 60610

Dear Ms. Mills-Thomas:

Enclosed is the U.S. Department of Health & Human Services (HHS), Office of Inspector
General (OIG), final report entitled Results of Limited Data Quality and Recipient Reporting
Review at Near North Health Service Corporation. We will forward a copy of this report to the
HHS action official noted on the following page for review and any action deemed necessary.

The HHS action official will make final determination as to actions taken on all matters reported.
We request that you respond to this official within 30 days from the date of this letter. Your
response should present any comments or additional information that you believe may have a
bearing on the final determination.

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that OIG post its publicly
available reports on the OIG Web site. Accordingly, this report will be posted at
http://oig.hhs.gov.

If you have any questions or comments about this report, please do not hesitate to call me, or
contact Mike Barton, Audit Manager, at (614) 469-2543 or through email at
Mike.Barton@oig.hhs.gov. Please refer to report number A-05-10-00059 in all correspondence.

                                             Sincerely,



                                             /James C. Cox/
                                             Regional Inspector General
                                               for Audit Services

Enclosure
Page 2 – Ms. Berneice Mills-Thomas


Direct Reply to HHS Action Official:

Sandy Seaton
Health Resources and Services Administration
Office of Federal Assistance Management/Division of Financial Integrity
Rm 11A-55, Parklawn Bldg.
Rockville, MD 20857
Department of Health & Human Services
           OFFICE OF
      INSPECTOR GENERAL




    RESULTS OF LIMITED
     DATA QUALITY AND
RECIPIENT REPORTING REVIEW
  AT NEAR NORTH HEALTH
   SERVICE CORPORATION



                      Daniel R. Levinson
                       Inspector General

                         August 2010
                        A-05-10-00059
                        Office of Inspector General
                                          http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health & Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at http://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                  EXECUTIVE SUMMARY

BACKGROUND

The American Recovery and Reinvestment Act of 2009 (Recovery Act), P.L. No. 111-5, was
enacted February 17, 2009, to preserve and create jobs; to assist those most affected by the
recession; to increase economic efficiency by investing in technological advances in science and
health care; to invest in transportation, environmental protection, and other infrastructure that
will provide long-term economic benefits; and to stabilize State and local budgets. The
Recovery Act provides approximately $145.7 billion to the Department of Health & Human
Services (HHS).

To promote transparency and accountability, section 1512 of the Recovery Act requires each
recipient of Recovery Act funds to report on its use of funds to the applicable Federal agency not
later than 10 days after the end of each calendar quarter. The reports should include, among
other things, the total amount of Recovery Act funds received, the amount that was spent or
obligated, and the number of jobs created or retained with Recovery Act funds.

The Health Centers Consolidation Act of 1996 (P.L. No. 104-299) consolidated the Health
Center Program under Section 330 of the Public Health Service Act, codified at 42 U.S.C. §
254(b). Within HHS, the Health Resources and Services Administration (HRSA) administers the
Health Center Program. Under the Recovery Act, HRSA received $2.5 billion in fiscal year
(FY) 2009, including $2 billion to expand the Health Center Program to serve more patients,
stimulate new jobs, and meet the significant increase in demand for primary health care services
among the Nation’s uninsured and underserved populations.

Near North Health Service Corporation (Near North), established in 1966, is one of the largest
nonprofit community health centers in the Chicago area, providing health care, social services,
and nutrition education. Near North is funded through HRSA grants, Medicare, Medicaid, other
financial support and in-kind donations. During FY 2009, HRSA awarded three separate two-
year Recovery Act grants totaling $2,809,581 to Near North, including $1,418,300 for capital
improvement projects.

Our review covered recipient data submitted during the second and third reporting periods for the
capital improvement projects award. The second reporting period covered October 1 through
December 31, 2009, and the third reporting period covered January 1 through March 31, 2010.

OBJECTIVE

Our objective was to determine whether Near North’s processes for compiling and reporting
selected data provide reasonable assurance of compliance with section 1512 requirements of the
Recovery Act.




                                                i
SUMMARY OF FINDINGS

Based on our assessment, Near North’s processes for compiling and reporting selected data
elements did not fully comply with section 1512 Federal requirements of the Recovery Act.
Near North created a duplicate report in FederalReporting.gov and had significant reporting
errors in its Federal reporting related to funds received, expenditures, jobs created or retained,
and project status. Near North’s failure to comply with section 1512 regulations resulted in the
following data element reporting errors:

   •   reported duplicate awards for both reporting periods, overstating the award amount by
       $1,418,300;

   •   recorded $300,000 received under the incorrect award number;

   •   understated expenditures by $77,798, including $8,400 paid during the first reporting
       period, $18,517 paid during the second reporting period, and $50,881 paid during the
       third reporting period;

   •   created a timing difference by recording $162,146 in the third period when expenses were
       paid in another reporting period;

   •   overstated vendor transactions by $85,789 in the third reporting period;

   •   understated the number of jobs created or retained by at least 2.4 full-time equivalents for
       the third reporting period; and

   •   overstated the completion status of the award under the incorrect award number in the
       third reporting period.

These deficiencies occurred because Near North did not have adequate procedures or did not
consistently follow procedures that were in place to ensure that it complied with Federal
reporting requirements. The reporting errors could have resulted in the public being misled or
confused by Near North’s use of Recovery Act funds.

RECOMMENDATIONS

We recommend that Near North:

   •   establish and implement written policies and procedures in compiling and reporting of
       Recovery Act data elements,

   •   follow current HRSA guidelines that incorporate Office of Management and Budget
       reporting guidance, and

   •   ensure that similar errors are not made in subsequent reporting periods.


                                                 ii
NEAR NORTH’S COMMENTS

In written comments on our draft report, Near North indicated that it has taken action to comply
with our recommendations. Near North’s response to our draft report is included as the
Appendix. We excluded the attachments to Near North’s comments because they contained
proprietary information.




                                               iii
                                                    TABLE OF CONTENTS
                                                                                                                                      Page

INTRODUCTION....................................................................................................................1

     BACKGROUND .................................................................................................................1
       American Recovery and Reinvestment Act ...................................................................1
       Section 1512 Reporting Requirements ..........................................................................1
       Office of Management and Budget Implementing Guidance ........................................1
       Health Resources and Services Administration .............................................................2
       Near North Health Service Corporation ........................................................................2

     OBJECTIVE, SCOPE, AND METHODOLOGY ...............................................................3
       Objective ........................................................................................................................3
       Scope ..............................................................................................................................3
       Methodology ..................................................................................................................3

FINDINGS AND RECOMMENDATIONS ..........................................................................4

     DUPLICATE REPORTING OF THE GRANT AWARD ..................................................5

     DATA ELEMENTS REPORTED .......................................................................................5
       Recovery Act Reporting Requirements .........................................................................5
       Data Element Accurately Reported ...............................................................................6
       Data Elements Inaccurately Reported ............................................................................6
       Conclusion .....................................................................................................................7

     RECOMMENDATIONS .....................................................................................................8

     NEAR NORTH’S COMMENTS .........................................................................................8

APPENDIX: NEAR NORTH’S COMMENTS




                                                                       iv
                                              INTRODUCTION

BACKGROUND

American Recovery and Reinvestment Act

The American Recovery and Reinvestment Act of 2009 (Recovery Act), P.L. No. 111-5, was
enacted February 17, 2009, to preserve and create jobs; to assist those most affected by the
recession; to increase economic efficiency by investing in technological advances in science and
health care; to invest in transportation, environmental protection, and other infrastructure that
will provide long-term economic benefits; and to stabilize State and local budgets. The
Recovery Act provides approximately $145.7 billion to the Department of Health & Human
Services (HHS).

Section 1512 Reporting Requirements

To promote transparency and accountability, section 1512 of the Recovery Act requires quarterly
reporting by recipients of certain funds made available under the Recovery Act. A recipient
includes any non-Federal entity, other than an individual, that receives Recovery Act funds
directly from the Federal Government. Section 1512 reporting requirements apply mainly to
recipients of grants, contracts, and loans for discretionary programs. Section 1512(c) requires
each recipient to report to the applicable Federal agency not later than 10 days after the end of
each calendar quarter:

    •   the total amount of Recovery Act funds received and the amount that was expended or
        obligated;

    •   a detailed list of all projects for which Recovery Act funds were expended or obligated,
        including the project name, description, completion status, and an estimate of the number
        of jobs created or retained; and

    •   detailed information on payments to subrecipients and vendors. 1

Office of Management and Budget Implementing Guidance

To implement section 1512 of the Recovery Act, on June 22, 2009, OMB issued memorandum
M-09-21, which requires recipients to report detailed information on their projects. 2 This
guidance applies to recipients of grants, loans, tribal agreements, cooperative agreements, and


1 A vendor is a dealer, distributor, merchant, or other seller providing goods or services for a Federal program. A

recipient or subrecipient may purchase from vendors those goods or services needed to carry out a project (Office of
Management and Budget (OMB) memorandum M-09-21, section 2.2, p. 7 (June 22, 2009)).

2 Section 3.1 of M-09-21 requires that the information reported by recipients and subrecipients of Recovery Act

funds be submitted through www.FederalReporting.gov, reviewed by the funding agency, and published on
www.recovery.gov. Programs subject to the reporting requirements in section 1512 of the Recovery Act are listed
in Supplement 1 of M-09-21.

                                                         1
other forms of assistance. During the second reporting period, October 1 through December 31,
2009, OMB updated its guidance (memorandum M-10-08) to incorporate lessons learned from
the first reporting period (ended September 30, 2009) and address recommendations of the
Government Accountability Office. The update simplified the manner in which job estimates are
calculated and reported. Specifically, recipients now report job estimates on a quarterly, rather
than a cumulative basis; all other data elements are still reported cumulatively. Recipients are no
longer required to sum various data on hours worked across multiple quarters of data when
calculating job estimates. In addition, recipients are no longer required to make a subjective
judgment on whether jobs were created or retained as a result of the Recovery Act.

Health Resources and Services Administration

The Health Centers Consolidation Act of 1996 (P.L. No. 104-299) consolidated the Health
Center Program under Section 330 of the Public Health Service Act, codified at 42 U.S.C.
§ 254(b). Pursuant to 42 U.S.C. § 254(b), the Health Center Program is a national program
designed to provide comprehensive primary health care services to medically underserved
populations through planning and operating grants to health centers. Within HHS, the Health
Resources and Services Administration (HRSA) administers the Health Center Program.

The Health Center Program provides grants to nonprofit private or public entities that serve
designated medically underserved populations, including migrant and seasonal farm workers, the
homeless, and residents of public housing. Health centers funded by HRSA are community
based, patient-directed organizations that meet the definition of “health center” under
42 U.S.C § 254(b).

Under the Recovery Act, HRSA received $2.5 billion in fiscal year (FY) 2009, including
$2 billion to expand the Health Center Program to serve more patients, stimulate new jobs, and
meet the significant increase in demand for primary health care services among the Nation’s
uninsured and underserved populations.

On December 29, 2009, HRSA issued the third edition of the Health Center Quarterly Reporting
Manual (the reporting manual), which incorporates OMB’s revised guidance. The reporting
manual provides guidance to assist recipients in the reporting of section 1512 Recovery Act data
elements. In addition, the reporting manual requires recipients to report on a limited number of
health center program performance elements to allow HRSA to report on and demonstrate the
impact of health center activities funded under the Recovery Act. To further assist recipients in
reporting Recovery Act data elements, HRSA holds a quarterly technical conference call that
addresses reporting requirements.

Near North Health Service Corporation

Near North Health Service Corporation (Near North), established in 1966, is one of the largest
nonprofit community health centers in the Chicago area. It provides health care, social services,
and nutritional education to many of Chicago’s 77 community areas, encompassing a targeted
population of more than 1.5 million. Six Near North community-based health centers provide



                                                2
primary care clinical services and comprehensive social support programs. In FY 2008, Near
North served 47,506 clinical and non-clinical patients through more than 98,500 visits.

Near North is funded through HRSA grants, Medicare, Medicaid, other financial support and in-
kind donations. During FY 2009, HRSA awarded three separate two-year Recovery Act grants
totaling $2,809,581 to Near North, including $1,418,300 for capital improvement projects.

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether Near North’s processes for compiling and reporting
selected data provide reasonable assurance of compliance with section 1512 requirements of the
Recovery Act.

Scope

Our review covered recipient data submitted during the second and third reporting periods for the
capital improvement projects award. The second reporting period covered October 1 through
December 31, 2009, and the third reporting period covered January 1 through March 31, 2010.
We reviewed Near North’s processes in compiling and reporting Recovery Act data elements for
the second reporting period and the actions taken to enhance data quality for the third reporting
period. Specifically, we selected the data elements for funds received, funds expended, jobs
created, project status, and final project report indicator to ensure compliance with section 1512
requirements of the Recovery Act. To gain an understanding of Near North’s compiling and
reporting of Recovery Act data elements, we conducted a limited review of the internal controls
related to our audit objective.

We performed our fieldwork at Near North’s administrative office, located at the Winfield
Moody Health Center in Chicago, Illinois, during May 2010.

Methodology

To accomplish our objective, we:

    •   reviewed relevant Federal laws, regulations, and guidance;

    •   reviewed Near North’s Capital Improvement Project (CIP) 3 grant award;

    •   reviewed Near North’s Recovery Act reported data elements and comments reported on
        FederalReporting.gov;



3The CIP awards were made available by the Recovery Act to address pressing capital improvement needs in health
centers, such as construction, repair, renovation, and equipment purchases, including health information technology
systems.

                                                        3
   •   interviewed personnel to gain an understanding of Near North’s Recovery Act reporting
       processes;

   •   performed analytical procedures to determine the reasonableness of the reported data
       elements when compared with supporting documentation for expenditures and funds
       received;

   •   reconciled the number of jobs created to payroll records to determine the reasonableness
       of the number of jobs reported; and

   •   discussed findings with Near North’s officials.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective.

                          FINDINGS AND RECOMMENDATIONS

Based on our assessment, Near North’s processes for compiling and reporting selected data
elements did not fully comply with section 1512 Federal requirements of the Recovery Act.
Near North created a duplicate report in FederalReporting.gov and had significant reporting
errors in its Federal reporting related to funds received, expenditures, jobs created or retained,
and project status. Near North’s failure to comply with section 1512 regulations resulted in the
following data element reporting errors:

   •   reported duplicate awards for both reporting periods, overstating the award amount by
       $1,418,300;

   •   recorded $300,000 received under the incorrect award number;

   •   understated expenditures by $77,798 including, $8,400 paid during the first reporting
       period, $18,517 paid during the second reporting period, and $50,881 paid during the
       third reporting period;

   •   created a timing difference by recording $162,146 in the third period when expenses were
       paid in another reporting period;

   •   overstated vendor transactions by $85,789 in the third reporting period;

   •   understated the number of jobs created or retained by at least 2.4 full-time equivalents for
       the third reporting period; and

   •   overstated the completion status of the award under the incorrect award number in the
       third reporting period.

                                                 4
These deficiencies occurred because Near North did not have adequate procedures or did not
consistently follow its own procedures that were in place to ensure that it complied with
Recovery Act reporting requirements contained in section 1512. As a result, the reporting errors
could have resulted in the public being misled or confused by Near North’s use of Recovery Act
funds.

DUPLICATE REPORTING OF THE GRANT AWARD

HRSA’s Health Center Quarterly Reporting Manual (the reporting manual) describes
submission requirements for health centers that receive funds under the Recovery Act. The
reporting manual instructs grant recipients to file only one report per quarter for each award.
Near North received a single award of $1,418,300 for two capital improvement projects for the
period. Near North inappropriately entered each capital improvement project into
FederalReporting.gov as a separate award, thus creating two reports for the single Recovery Act
award and duplicating the $1,418,300 amount reported. Near North entered one capital
improvement project into FederalReporting.gov with the correct award number. However, the
second capital improvement project was entered under a separate but similar award number,
patterned after the actual award number. The reporting problem persisted through the quarter
ended March 31, 2010.

HRSA informed Near North of the duplicate reporting problem in both the second and third
reporting periods. In its comments to Near North on FederalReporting.gov, HRSA instructed
Near North to use the Federal grant number as it appears in the Notice of Grant Award and
deactivate the report with the incorrect award number. However, Near North staff did not
eliminate the duplicate report and capture the project information under the correct award
number.

DATA ELEMENTS REPORTED

Recovery Act Reporting Requirements

OMB memorandum M-09-21, section 2.5, states that all data contained in each quarterly
recipient report will be cumulative to encompass the total amount of funds expended to date.
However, OMB later issued memorandum M-10-08 allowing for recipients to report job estimate
information on a quarterly basis, rather than a cumulative one.

OMB memorandum M-10-08 states that the estimated number of jobs created should be
expressed as full-time equivalents (FTEs). Specifically, OMB memorandum M-10-08 states that
in calculating an FTE, the number of actual hours worked in funded jobs are divided by the
number of hours representing a full work schedule for the kind of job being estimated. These
FTEs are then adjusted to count only the portion corresponding to the share of the job funded by
Recovery Act funds. All other reporting elements continue to be reported cumulatively.

HRSA’s third edition of the reporting manuals restates OMB’s guidance that FTEs will be
reported only to the extent that Recovery Act funds are used.

                                               5
Data Element Accurately Reported

Near North complied with OMB and HRSA guidance in reporting the final project report
indicator for the second and third periods. Specifically, Near North correctly reported the final
project indicator as “not completed.”

Data Elements Inaccurately Reported

Federal Funds Received

The Recovery.gov data dictionary describes total Federal funds received as the amount of
Recovery Act funds received through drawdown, reimbursement or invoice.

For the quarter ending March 31, 2010, Near North reported total Federal Recovery Act funds
received of $300,000 under an incorrect award number. At the time of the review, the amount
had not been reported under the correct award number. The error occurred, in part, due to the
creation of a duplicate report.

Federal Expenditures

The Recovery.gov data dictionary describes total Federal expenditures as the cumulative total of
Federal funds expended for all projects under an award. For reports prepared on a cash basis,
expenditures are the sum of cash disbursements for direct property and services.

As of March 31, 2010, the expenditure amount field, on the Recovery.gov Grants – Award
Summary, indicated that Near North had not expended any Recovery Act funds for either of its
capital improvement projects. However, Near North used Recovery Act funds to make vendor
payments totaling $77,798 for the two capital improvement projects. Using a cash basis, Near
North incurred expenditures of $8,400 for the first reporting period ended September 30, 2009,
$18,517 for the second reporting period ended December 31, 2009, and $50,881 for the third
reporting period ended March 31, 2010. None of these amounts were reported on
FederalReporting.gov.

In the Vendor Transaction section of the Federal report, Near North created a timing difference
by recording $162,146 in the third period when expenses were paid in another reporting period.
Additionally, Near North overstated vendor transactions by a total of $85,789 as a result of
reporting 1) non-Recovery Act vendor transactions of $62,605 as Recovery Act transactions and
2) a vendor transaction in excess of the invoiced amount by $23,184 during the third reporting
period on FederalReporting.gov.

Even though Near North submitted vendor transaction information, the amounts were not carried
forward to the Award Summary. Near North staff, responsible for data quality review, said they
did not have sufficient time between the end of the quarter and the reporting deadline 10 days
later to adequately review the data.



                                                 6
Jobs Created or Retained

The Recovery.gov data dictionary describes the number of jobs created or retained as an estimate
of the combined number of jobs funded by the Recovery Act during the current reporting quarter.
The number shall include the number of jobs created and retained by subrecipients and vendors,
expressed as FTEs, calculated quarterly as all hours worked and funded by the Recovery Act
during the current reporting period divided by the total number of hours in a full-time schedule
for the quarter.

Near North had not developed a process for calculating the number of FTE jobs created or
retained. Near North reported zero FTEs for the second reporting period and 1.3 FTEs for the
third reporting period. Yet, our review of payroll records for the largest of 3 vendors indicated
that 3.7 FTEs were working on the project during the third reporting period. As such, Near
North underestimated the number of jobs created or retained by at least 2.4 FTEs for the third
reporting period.

Near North could not calculate a more accurate estimate because it did not obtain sufficient
records from the vendor. Instead, Near North relied on an estimate provided by the vendor
consisting of the number of staff working on the project. This method understated the estimated
number of jobs as FTEs for section 1512 reporting.

Project Status

The Recovery.gov data dictionary describes the project status as the best estimate of the
completion status of all projects supported by the award. The completion status indicators are:
1) not started, 2) less than 50 percent completed, 3) completed 50 percent or more, and 4) fully
completed. For the quarter ended March 31, 2010, Near North reported the project status for one
project as less than 50 percent completed under the correct award number and reported the
project statues for the second project as completed 50 percent or more under the made-up award
number. The completion status for both projects to be performed under a single grant should
have been recorded under the correct award number as less than 50 percent completed as of
March 31, 2010.

Conclusion

Near North senior officials had implemented a process for reporting Recovery Act information to
FederalReporting.gov. However, the process did not ensure that required data elements
complied with OMB guidance, and management did not always follow current guidance when
reporting specific data elements. Our review of Near North’s process, policies, and procedures
noted the following weaknesses:

       •   Near North did not have policies and procedures in place to ensure that data was
           accurate before being entered into FederalReporting.gov (e.g., non-Recovery Act
           vendor transactions).




                                                 7
       •   Near North did not establish or implement automated data quality checks, nor
           perform analytical procedures as stipulated in OMB guidance. Near North did not
           review data elements submitted to the Federal agency and there were no procedures
           to ensure that data elements reported were reasonable. Specifically, Near North did
           not realize that the total amount of expenditures did not capture the payments made to
           vendors.

       •   Near North did not calculate the number of jobs as the hours worked divided by the
           total number of hours in a full-time schedule for the quarter or obtain sufficient
           payroll information from vendors to make the calculation.

HRSA informed Near North of the duplicate reporting problem in both the second and third
reporting periods. In its comments to Near North on FederalReporting.gov, HRSA instructed
Near North to use the Federal grant number as it appears in the Notice of Grant Award and
deactivate the report with the incorrect award number. However, Near North staff did not
eliminate the duplicate report and capture the project information under the correct award
number.

The reporting errors could have resulted in the public being misled or confused by Near North’s
use of Recovery Act funds.

RECOMMENDATIONS

We recommend that Near North:

   •   establish and implement written policies and procedures in compiling and reporting of
       Recovery Act data elements,

   •   follow current HRSA guidelines that incorporate Office of Management and Budget
       reporting guidance, and

   •   ensure that similar errors are not made in subsequent reporting periods.

NEAR NORTH’S COMMENTS

In written comments on our draft report, Near North indicated that it has taken action to comply
with our recommendations. Near North’s response to our draft report is included as the
Appendix. We excluded the attachments to Near North’s comments because they contained
proprietary information.




                                                8
APPENDIX
                                                                          Page 1 of 3

                APPENDIX: GRANTEE COMMENTS




July 22, 2010

Office of Inspector General
Office of Audit Services, Region V
233 North Michigan Avenue
Suite 1360
Chicago, IL 60601

Re: Report Number A-05-10-00059

Dear Mr. James C. Cox:

Please accept the enclosed written comments as response to the findings identified in the report
entitled “Results of the Limited Data Quality and Recipient Reporting Review at Near North
Health Service Corporation”, received by my office on July 16, 2010.

Finding 1:
Reported duplicate awards for both reporting periods, overstating the award amount by
$1,418,300.
    Action Taken: Error resolved. On 5/27/10, a revised Capital Improvement report containing
    the inaccurate award number was deactivated. Both capital improvement projects were
    combined into one report under the correct award number.

Finding 2:
Recorded $300,000 received under the incorrect award number.
    Action Taken: Error resolved. A revised Capital Improvement report was submitted under
    the correct award number on 5/27/10.

Finding 3:
Understated expenditures by $77,798 including, $8,400 paid during the first reporting period,
$18,517 paid during the second reporting period, and $50,881 paid during the third reporting
period.
     Action Taken: Error resolved. Correction made and a revised Capital Improvement report
     was submitted report on 5/27/10.
                                     1
                                                                                       Page 2 of 3


Finding 4:
Created a timing difference by recording $162,146 in the third period when expenses were paid
in another reporting period.
     Action Taken: Error resolved. This amount paid to Oakley Construction was included in
     the total cumulative amount of payments reported in the CY2010 QTR 2 report submitted
     on July 14, 2010.

Finding 5: Overstated vendor transactions by $ 85, 789 in the third reporting period
    Action Taken: Error resolved. Deleted all companies hired to perform services by
    contracted vendors, and a revised Capital Improvement report was resubmitted on 5/27/10.
    1) Pyra-Med Group removed from vendor transaction section of report
    2) Smith and Smith payments have been reconciled and are reflective of only ARRA
       funded projects.

Finding 6: Understated the number of jobs created or retained by at least 2.4 full-time
equivalents for the third reporting period.
    Action Taken: Error resolved. Advised by Karl Reis at HRSA to keep the FTE hours
    matching the FTE hours reported in the HCQR report, and to make the correction on the
    upcoming report which was due to be submitted in July. Vendor FTE hours were calculated
    in compliance with OMB guidance.

Finding 7: Overstated the completion status of the award under the incorrect award number in
the third reporting period
     Action Taken: Error resolved. Both capital improvement projects were combined into one
     report, and the total project completion status was reported under the correct award number.
     Corrected report submitted on 5/27/10.

NNHSC currently adheres to its written Policy and Procedure for ARRA reporting that was
given to the OIG audit tame during the review (please see attachment 1). NNHSC has also
developed and implemented several Quality Assurance processes and tools for ARRA reporting,
to ensure that the data is accurate prior to being entered into the FederalReporting.gov
(Attachments 6-9).

   1.) ARRA Data Request Template – patterned from the FederalReporting.gov website, this
       excel spreadsheet is formatted to accept free text (character restrictions), and numerical
       data. The Jobs FTE is auto-calculated based on the total number of hours in a full-time
       schedule for the quarter (Attachment 2).




                                                2
                                                                                      Page 3 of 3

   2.) Vendor Payment Worksheet – a) all vendor payments are entered on this form; b) all
       payments less than $25,000 are programmed to be highlighted in blue and produce pop-
       up details giving instructions to include the amount in the appropriate cell on the
       aforementioned ARRA Data Request Template; c) all payments equal to or more than
       $25,000 are highlighted in red and produce pop-up giving instructions to create a vendor
       transaction in FederalReporting.gov; and d) the total vendor payment amount is auto-
       calculated into a percentage to determine the percent of project completion
       (expenditure/award amount) (Attachment 3).

   3.) Prime Recipient Vendor Form – contains all information abut the recipient including, but
       not limited to: name and address, project location, total ARRA paid hours, total full-time
       hours, and project activity description of fund spent (Attachment 4).

   4.) Recovery Act Employment Status Report – staffing utilization report which contains
       employee name, pay period, hours worked, and a drop down field for selection of the
       corresponding major service category (Attachment 5).

In closing, we appreciate the professionalism and thoroughness of your staff that conducted the
review, and are thankful of the opportunity to strengthen our reporting processes. Please do not
hesitate to contact me, if any questions should arise regarding this response.


Sincerely,
Berneice Mills-Thomas
Executive Director


Attachments (9)




                                                3
